TABLE OF CONTENST
All Opinions and Orders are Not Published
Page
Opinion U.S. Court of Appeals for the Eleventh
Circuit entered May 15, 2019,..............................

1

Endorsed Order of the Honorable Virginia
Hernandez Covington entered on 03/26/2019,

9

Opinion of the Honorable Jill Pryor U.S.Court of
Appeals for the Eleventh Circuit entered Nov. 23,
2015:that the Maduras’ appeal is without arguable
arguable merit because SJ of foreclosure did not
conflict with Jesinoski and the Maduras’ May 23,
2001 intention to rescind was not sent to Bana,.....10
Order of the Honorable Wilson, Rosenbaum and Fay,
Circuit Judges entered on Nov. 4, 2014 denying of
Maduras’ Motion, of Sept. 2013, to direct the district
court to allow the inspection, and preservation on
appeal, of the Note and the TILA disclosure which
had been evaluated sua sponte as originals at the
eve of SJ of foreclosure by Judge Covington despite
Maduras’ affidavits, undisputed by CHL since 2001,
and despite the courts forensic reports that same
13
had been falsely made entered on Nov.7, 2014,
The excerpts from the Honorable Virgina M.
Hernandez Covington, U.S.MD Fla., July 17, 2013
SJ of foreclosure with remarks as to the Maduras’
loan rescission based on reported Order (Doc.213),. 14
The Honorable Virgina M. Hernandez Covington,
U.S.M.D.of Fla. August 31, 2012 Order denying the
Maduras’ motion to dismiss Bana’s foreclosure
counterclaim for lack subject matter jurisdiction due
to Maduras’ alleged failure to sent their May 23,2001
rescission notice to Bana, a stranger to the loan,...18

Order of the Honorable Marc Gilbert Circuit Judge
(Madurai) on Cross SJ Motions in CHL’s favor,
absent ruling on Mrs.Madura’s claims of forgery of
the Note&TILA disclosure entered on 06/22/2005,.22
The transcript excerpt of Manatee County Circuit
Court (Madurai) 01/20/2014 SJ hearing where
Honorable Marc Gilner refused to rule on claims of
CHL forgery of the Note and TILA, as:
”A Jury not the Court would have to decide it,.......28
Amendmends 5l;h and 14lh to U..S Constitution,.... 31
Relevant 15 U.S.C.1635 et seq involved,

31

Relevant Regulation Z TILA involved,

33

The Maduras’ Motion to Dismiss with Prejudice
Bank’s Foreclosure Counterclaim for Lack Subject
Matter Jurisdiction, due to Countrywide Home
Loans Inc.’s failure to respond to May 23, 2001
Rescission Notice, filed on August 27, 2012,........... 34
The Post Master’s Certificate of Service of
Maduras’ May 23, 2000 loan rescission notice to
Countrywide and May 29, 2001 Receipt,.............

38

May 23, 2001 Loan Rescission Notice,

39

Aug. 31, 2012 Bana’s Response to motion to dismiss
counterclaim of foreclosure for lack of subject matter
44
jurisdiction to foreclose the void mortgage

June 4, 2001 State of Florida Office of Comptroller
Financial Investigation’s letter to Countrywide
directing within 30 days respond as to Case:
( CP 010500483) against Countrywide CHL for
creation of not disclosed at loan closing forged TILA
and the Note, containing altered loan conditions,...47
July 17, 2001 Countrywide’s letter to Mr. Madura
in response to Comptroller’s June 4, 2001 letter,...48
The excerpt of the April 23, 2007 CHL”s Notice of
Default and Acceleration providing: “If the default
is not cured on or before May 23, 2007, the mortgage
payments will be accelerated and foreclosure
proceedings will be initiated at that time,
49
August 1, 2016 Fannie Mae’s disclosure that Fannie
Mae, and not Bana, had been exclusive owner of
Maduras’ rescinded loan from August 1, 2000 until
April 30,2009 and had serviced it through CHL,....50
The MERS’ MILLESTONE shows that until
05/08/2009 Fannie Mae was an exclusive owner
of the Maduras’ loan,...............................................

51

The Bana’s false loan history disclosed on
Dec.31,2012, 54 days after discovery deadline,.......52
CHL’s loan history since Aug. 1, 2000 on behalf of
Fannie Mae where CHL, being reminded of effected
loan rescission, liquidated servicing in Nov.2006 and
never initiated the acceleration and foreclosure,...54
January 21, 2015 MERS assignment of the
Maduras’ mortgage to Bana,.........................

55

Secretary of State of Texas April 21, 2009 Certificate
of changing name of Countrywide Home Loans
Servicing L.P. to BAC Home Loan Servicing L.P,...56
Page 48 of the IB on plenar appeal No.l3-13953,...57
Jan, 21,2010 letter to BAC Home Loans Serv.LP,..58
Dec. 21, 2010 letter to BAC Tax Services Corp.,.....60
The Judge Covington’s arbitrary striking of since
decade never disputed forensic reports of forgery
of the CHL’s Note ,TILA disclosure and Notice of
Right to Cancel, which she sua sponte evaluated
originals knowing that they were falsely made,..., 61
December 31, 2012 54 days after the discovery
deadline, filed by Bana “affidavit” of the undisclosed
in discovery its witness’ “confirming” fraudulently
created by Bana for the purpose of the foreclosure
purported the Maduras’ loan history with Bana’s
false statements that was receiving loan payments
from the Maduras The district court entered SJ of
foreclosure based on false history and 11th Circuit
afformed,
62
The excerpt from Mr. Madura’s affidavit in support
of response to Bana’s Sumary Judgment Motion and
to statement of undisputed facts(Doc.416-3),
65

1
Case: 18-11716 Date Filed: 05/15/2019 Page: i 0f 10
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT _
No. 18-11716 Non-Argument Calendar
D.C. Docket No. 8:il-cv-02511-VMC-TBM
ANDRZEJ MADURA, ANNA DOLINSKAMADURA,
Plaintiffs - Counter Defendants Counter Claimants - Appellants,
versus BAC HOME LOANS SERVICING, L.P.,
f.k.a. Countrywide Home Loans Servicing, LP,
Defendant-Appellee,
BANK OF AMERICA, N.A.,
Defendant -Counter Claimant Third Party Plaintiff-Counter DefendantAppellee,
COUNTRYWIDE HOME LOANS INC.,
Counter Defendant,
UNKNOWN TENANT 2, et al.
Third Party Defendants.
Case: 18-11716 Date Filed: 05/15/2019 Page: 2 of 10
Appeal from the United States District Court for the
Middle District of Florida
(May 15, 2019)
Before TJOFLAT,JORDAN and FAY, Circuit Judges
PER CURIAM: Andrzej Madura and Anna
Dolinska-Madura (collectively, “the Maduras”),
proceeding pro se, appeal the denial of their Federal
Rule of Civil Procedure 60(b)(4) motion for relief
from the district court’s 2013 final judgment in their

2

action against Bank of America, N.A., and BAC
Home Loans Servicing, L.P. (collectively, “the
Banks”). We affirm in part and dismiss in part.
I. BACKGROUND
In 2000, Madura obtained a residential home loan
from Full Spectrum Lending, Inc. (“Full Spectrum”),
and signed a promissory note; he and his wife,
Dolinska-Madura, signed the mortgage.
Countrywide Home Loans, Inc. (“Countrywide”),
then purchased the loan from Full Spectrum on July
31, 2000. In 2001, the Maduras contacted
Countrywide and requested to repay the loan in full.
Countrywide notified them that a prepayment
penalty would apply and provided a payoff statement
reflecting the penalty. The Maduras responded with
a letter demanding an immediate rescission of the
loan, asserting that Countrywide had destroyed
Case:l8-11716 Date Filed: 05/15/2019 Page:3 of 10
the original loan records and fabricated new ones
that included the prepayment penalty. Countrywide
refused to rescind the loan, but it agreed to waive
the prepayment fee. The Maduras did not repay the
loan in full; instead, they continued making monthly
loan payments until November 2006, when they
stopped. In 2007, Countrywide sent a notice of
default and acceleration. In 2009, changed its name
to BAC Home Loans Servicing, L.P. (“BAC”); in
2011, BAC merged with Bank of America, N.A.
(“BOA”). BOA sent Madura a re-notice of default
and acceleration in February 2012; Madura did not
cure the default. Following the 2001 rescission
demand, the Maduras initiated several lawsuits
against BAC, Countrywide, Full Spectrum, and
BOA. See Madura v. BAC Home Loans Servicing,
LP, 593 F. App’x 834, 837-39 (llth Cir. 2014)

3

(describing the history of litigation, including:
Madura 1, a 2002 action in Florida state court;
Madura 2, a 2006 action in federal court; Madura 3,
a 2010 state court complaint that was removed to
federal court; Madura 4 and Madura 6, 2011 and
2012 actions, respectively, in Florida small claims
court; and Madura 5, the present action, which was
filed in state court and removed to district court by
the Banks). All of these actions were resolved in
favor of the defendants. Id. The Maduras sought
rescission of their loan in several of their lawsuits,
based on their argument that they had effectively
rescinded the loan when they sent the letter
Case: 18*11716 Date Filed: 05/15/2019 Page: 4 of 10
detailing the alleged fraud and forgery of the loan
documents. In Madura 2, the district court
dismissed Madura’s claims and ordered arbitration
under a provision in the loan agreement, and it
granted summary judgment in favor of BOA on
Dolinska-Madura’s claims. Madura v. Countrywide
Home Loans, Inc., F. App’x 509, 513 (llth Cir. 2009).
On appeal, we concluded that Dolinska Madura’s
fraud-related claims and arguments that the
Maduras had rescinded their loan were barred by
the doctrines of res judicata and collateral estoppel,
because they had already pursued them in Madurai,
their first action in Florida state court.I d.at 517*18.
In 2011, the Maduras filed Madura 5, the action
underlying this appeal, in Florida state court; the
Banks removed the auction to federal district court.
In an amended complaint, the Maduras claimed, in
relevant part, that their loan documents had been

4
forged and that the Banks had violated the Real
Estate Settlement Procedures Act and the Truth m
Lending Act (“TILA”). BOA, on its own and as
successor by merger to BAC, filed an answer and
raised numerous affirmative defenses to the
amended complaint. In 2012, BOA filed a
counterclaim for foreclosure against the Maduras,
asserting that it held a valid mortgage on their
property and that it was entitled to foreclose based
on the Maduras’ default on the terms of the
underlying loan. The Maduras filed a 140
page answer to BOA’s counterclaim for foreclosure,
denying the allegations and raising dozens of
Case: 18-11716 Date Filed: 05/15/2019 Page:5 of 10
affirmative defenses. The Maduras asserted, among
other things, that BOA lacked standing to foreclose
because it had rescinded the loan in May 2001 and
the loan documents had been forged andfraudulently
altered. Later in 2012, BOA moved for summary
judgment on the Maduras’ claims and on its
counterclaim for foreclosure. The Maduras
responded in opposition to summary judgment and
simultaneously filed their own motion for partial
summary judgment on the foreclosure counterclaim.
They reasserted the same arguments with regards to
standing, namely, that they had rescinded the loan
and that the loan documents had been forged and
altered. The Maduras also filed a report from
Thomas Vastrick, whom they asserted was a forensic
expert. They asserted that Vastrick had provided
expert assessments showing that their signatures
and initials on the loan documents were not
authentic. In July 2013, the district court granted
BOA’s motion for summary judgment and motion in
limine to strike Vastrick’s forensic reports. The

5
Maduras appealed this ruling; we affirmed. See
Madura, 593 F.App’x at 841-50 (the “final judgment
affirmance”). We affirmed the district court’s
conclusion that the Maduras’ fraud and forgery and
rescission arguments were barred by res judicata
and collateral estoppel. Id. at 843-44. We also held
that, in any event, the Maduras ratified the loan by
continuing to make monthly payments through
Case: 8*11716 Date Filed: 05/15/2019 Page-6 of 10
November 2006. Id. at 844. We also affirmed the
district court’s decision to strike Vastrick’s forensic
reports. Id. at 847-48. On March 23, 2015, following
our final judgment affirmance, the Maduras moved
this Court to vacate its panel opinion and rehear the
matter en banc, based on the Supreme Court’s
January 2015 opinion in Jesinoski v. Countrywide
Home Loans, Inc., 135 S. Ct. 790 (2015). They
argued that our conclusion in the final judgment
affirmance as to their rescission claims was flawed
because Jesinoski made clear that a borrower need
not file a lawsuit in order to effectuate rescission.
We denied that motion in April 2015; the mandate
issued in June of that year. The Supreme Court
denied the Maduras’ certiorari petition in October
2015 and denied their request for rehearing shortly
thereafter. The Maduras later sought to recall our
mandate; we denied that request. Meanwhile,
following our judgment affirmance, the Maduras
filed numerous motions in the district court and
subsequent appeals in this Court, all without
success. In several of these motions the Maduras
again pursued their arguments that they had
rescinded the loan and that thedistrict court
therefore erred in foreclosing the loan. See, e.g.
Madura v. BACHome Loans Servicing, L.P., 721 F.
App’x 838, 842 (llth Cir. 2017); Madura v. BAC

6

Home Loans Servicing, LP, 655 F. App’x 717, 725
(11th Cir. 2016). In March 2018, the Maduras filed
Case;18'11716 Date Filed: 05/15/2019 Page:7 of 10
the present motion under Fed. R. of Civil Pr.60(b)(4)
for relief from the final judgment in Madura 5. They
argued that the judgment was void because the
district court lacked subject matter jurisdiction to
proceed on BOA’s foreclosure counterclaim. In an
endorsed order, the district court denied the motion.
The Maduras appealed, designating only that
ruling for review.
II. DISCUSSION
On appeal, the Maduras argue that the final
judgment, which included a foreclosure judgment in
favor of the Banks, was void because they rescinded
the underlying residential mortgage loan prior to the
filing of the action. A district court’s ruling on a
Rule 60(b)(4) motion to set aside a judgment as void
is reviewed de novo, because the validity of the
judgment involves a legal question. Burke v. Smith,
252 F.3d 1260, 1263 (11th Cir. 2001). An appeal of a
grant or denial of a Rule 60(b) motion is narrow in
scope, addressing only the propriety of the denial or
grant of relief, but not addressing issues in the
underlying judgment for review. Maradiaga v.
United;619 F 3d 1286, 1291 (11th Cir. 2012).
A “significantly higher” standard is generally used to
decide whether a movant is entitled to relief under
Rule 60(b), as opposed to a motion filed under
Federal Rule of Civil Procedure 59(e). Vanderberg v.
Donaldson, 259 F.3d 1321, 1326 (llth Cir. 2001)
(holding that the movant could not even satisfy Rule
Case: 18-11716 Date Filed: 05/15/2019 Page: 8 of 10

7

Case: 18-11716 Date Filed’- 05/15/2019 Page: 8 of 10
59(e)’s more lenient standard, much less the more
stringent Rule 60(b) standard). Rule 60(b)(4)provides
that a court may relieve a party from a final
judgment or order if it finds that the judgment is
void. Fed. R. Civ. P. 60(b)(4). “Generally, a judgment
is void under Rule 60(b)(4) ‘if the court that rendered
it lacked jurisdiction of the subject matter, or of the
parties, or if it acted in a manner inconsistent with
due process of law.”Burke, 252 F.3d at 1263 (quoting
In re Edwards, 962 F.2d 641, 644 (/th Cir. 1992)). A
judgment also is void for Rule 60(b)(4) purposes if
the rendering court was powerless to enter it. Id.
TILA provides that, under certain circumstances,
consumer borrowers may rescind certain loan
transactions by timely notifying the lender that they
intend to do so. 15 U.S.C. § 1635(a). The notice
must comply with applicable regulations.
Id. Within 20 days of receiving such notice, a
creditor must, inter alia, return to the obligor any
money or property given as earnest money,
downpayment, or otherwise, and shall take any
action necessary or appropriate to reflect the
termination of any security interest created under
the transaction.” Id. § 1635(b).
In Jesinoski, the Supreme Court addressed the
issue of whether a borrower may exercise his right of
rescission under TILA by only providing written
notice to his lender, or whether the borrower must
also file a lawsuit before the three-year limitations
period elapses. Jesinoski, 135 S. Ct. at /91. Although
the borrowers in Jesinoski exercised their right to
Case:i8-11716 Date Filed: 05/15/2019 Page: 9 of 10

8

rescission within the three-year period of their loan
origination, the district court granted the lender s
motion for a judgment on the pleadings because the
borrowers did not file a lawsuit within the three year
period. Id. The Supreme Court reversed, holding
that written notice of rescission within three years of
a loan’s origination is all that is required for a
borrower to exercise his right of rescission under
TILA Id. at792-93. Despite the Maduras’ arguments,
Jesinoski has no bearing on this case. The district
court found that the Maduras’ notice was not a
proper rescission and that the Maduras nullified any
rescission by continuing to make payments through
2006; it did not rule that the Maduras failed to
rescind because they did not file a lawsuit seeking
rescission. See id. at 791-92. Further, although the
Maduras argue that they have provided additional
evidence showing that the loan documents were
fraudulent, they have not raised any evidence that
was not considered at the time of the final judgment,
which expressly addressed their fraud and forgery
arguments. Therefore, the Maduras have failed to
show that the judgment was void, making
Rule 60(b)(4) relief unwarranted. See Burke, 252
F.3d at 1263. While the Maduras also raise
arguments that challenge the district court s
2013 final judgment, we lack jurisdiction to review
these arguments because the Maduras 2018 notice
of appeal was untimely as to that ruling and it only
designated the denial of their Rule 60(b)(4) motion
for relief. Fed. R. App. P.3 (c)(1)(B),4 (a)(1)(A);
Case:l8-11716 Date Filed: 05/15/2019 Page'-lO of 10
Green v. DEA, 606 F.3d 1296,1300-02 (11th Cir.2010)
Similarly, the Maduras challenge our 2014 opinion
affirming the district court’s 2013 final judgment,

9
affirming the district court’s 2013 final judgment,
Madura, 593 F. App’x 834; however, the law-of'thecase doctrine prohibits us from reviewing that
ruling. See Heathcoat v. Potts, 905 F.2d 367 370
(llth Cir. 1990). Accordingly, to the extent the
Maduras’ appeal raises these arguments, it is
dismissed.FNl
AFFIRMED IN PART, DISMISSED IN PART
FN 1 We note that a single judge of this Court directed the
parties to address whether the Maduras were entitled to
proceed in forma pauperis because they received such status in
the district court. Having concluded that this appeal is
meritless, we decline to further address this question; we
instead affirm in part and dismiss in part as further detailed in
this opinion. Additionally, although the Banks have requested
sanctions in their brief, our internal operating procedures
provide that such a request must be contained in a separate
motion, llth Cir. R. 38-1,1.0.P. Because the Banks did not
file a separate motion for sanctions, their request is DENIED.

U.S. District Court Middle District of Florida
The following entered filed on 3/26/2018 at 3'35 PM
Case: Madura et al v. BACHome Loans Serv. L.P.
No: 8:il-cv-02511-VMC-TBM
Warning case closed on 08/13/2013
Document No: 754 (No document attached)
ENDORSED ORDER denying (753) Motion for relief
from judgment. All of the many orders entered by
this Court as well as the Eleventh Circuit explain
why it is time for the Maduras to accept the
judgment of the Court and move forward.There is no
basis to grant relief sought. It is denied. Signed by
Judge Virginia M. Hernandez Covington on 03/26/18

10
Case'- 15-12925 Date Filed- 11/23/2015 Page:l of 4
IN THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
No. 15-12925-G
ANDRZEJ MADURA,
ANNA DOLINSKA-MADURA,
Plaintiffs Counter Defendants
Counter Claimants-Appellants,
versus
BAC HOME LOANS SERVICING, L.P., f.k.a.
Countrywide Home Loans Servicing, LP,
D efendant-Appellee,
BANK OF AMERICA, NA,
Defendant Counter Claimant Counter
Defendant Third Party Plaintiff Appellee,
COUNTRYWIDE HOME LOANS, INC,,
Counter Defendant
UNKNOWN TENANT 2, et al„
Third Party Defendants,
Appeal from the United States District
Court for the Middle District of Florida
ORDER:
Case: 15-12925 Date Filed:il/23/2015 Page: 2 of 4
Andrzej Madura and Anna Dolinska-Madura (the
Maduras") seek to appeal the denial of their motions
for: (l) an indicative ruling under Fed. R. Civ. Pr.
62.1 and Fed. R. App.. P. 12.1; and (2) relief from
judgment of foreclosure under Fed.R.Civ, P.60 (b)(6).
After defaulting on a loan from BAC Home Loans
Servicing, which later merged with and into Bank of
America, N.A. ("BOA"), the Maduras sued BOA in
five separate lawsuits, in state and federal court,
asserting numerous claims. Each of those claims was
denied. In the present action, the district court

11
granted summary judgment in favor of BOA s
counterclaim, and this Court affirmed.
The Maduras' filed a motion for reconsideration in
this Court. In a letter of supplemental authority, the
Maduras argued that this Court s order affirming
the district court's grant of summary judgment
conflicted with the Supreme Court’s decision in
Jesinoski i Countrywide Home Loans,Inc, 135 S. Ct.
790 (2015). This Court denied the motion for
reconsideration. The Maduras then filed a motion to
vacate thisCourt's opinion based on Jesinoski, and
this Court denied the motion. The Maduras then
filed in the district court a motion for indicative
ruling pursuant to Fed. R. Civ. P. 62.1 and Fed, R.
App. P. 12,1, requesting that the district court issue
an order stating either that (l) it would grant their
motion for reconsideration if this Court remanded
for that purpose, or (2) their motion raised a
substantial issue.The Maduras also filed a motion
fOr reconsideration pursuant to R. Civ.P. 60(b)(6)
arguing, again that the district court s grant of
summary judgment in favor of BOA conflicted with
Jesinoski The district court denied the motion for an
indicative ruling because this Court had already
denied the Maduras' Jesinoski claim. The district
court also denied the motion for reconsideration
because this Court had already affirmed its grant of
summary judgment in favor of BOA. The Maduras
filed a notice of appeal,and the district court denied
them leave to proceed in forma pauper’sC'IFP") on
appeal. They now seek IFP status.
Case:i5-12925 Date Filed: 11/23/2015 Page:3 of4
DISCUSSION:
Because the Maduras seek leave to proceed
On appeal IPF, the appeal is subject to a frivolity
the $6,000.00 penalty for which was never able to

12
determination, See 28 U.S.C, § 1915(e)(2)(B). An
appeal is frivolous when it is without arguable merit
either in law or fact. Napier v, Preslicka, 314 F.3d
528, 531 (11th Cir. 2002).
The district court did not err in denying the
Maduras' motion for an indicative ruling. Under Fed.
R. App. P. 12.1(a), when a party submits a timely
motion for relief that the district court lacks
authority to grant because an appeal is pending, the
party must notify the circuit clerk if the district
court states either that it would grant the motion for
relief or that the motion raises a substantial issue.
The Maduras' direct appeal was no longer pending
by the time the district court issued its order
denying their motion. Accordingly, their appeal as
to this issue is frivolous. The district also correctly
denied the Maduras' motion for reconsideration
because this Court twice rejected their argument
that the district court's grant of summary judgment
conflicted with Jesinoski. Moreover, Jesinoski is
inapposite to their case. In Jesinoski, the Supreme
Court held that a borrower need not file a lawsuit to
rescind a loan. 135 S. Ct. at 792. However, the issue
involved in the Maduras' rescission claim was not
whether they needed to file a lawsuit to rescind their
loan, but rather, whether they notified BOA that
they intended to rescind. Jesinoski would not have
CaseU5-12925 Date Filed- 11/23/2015 Page: 4 of 4
affected this issue, nor any of the other issues
involved in their case.
Because the Maduras' appeal is without arguable
merit, their motion for IFP status is DENIED. See
Napier, 314, F.3d at 531; 28 U.S.C, § 1915(e)(2).(B).
“s/’

(unreadable Judge Jill Pryor’s signature)
UNITED STATES CIRCUIT JUDGE

13
Case: 13-13953 Date Filed: 11/07/2014 Page: l 0f 2
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT No. 13-13953-AA
ANDRZEJ MADURA, ANNA DOLINSKAMADURA, Appellants Plaintiffs-Counter
Defendants- Counter Claimants, versus
BANK OF AMERICA,NA, Defendant-Counter
Claimant-Appellee,
Appeal from the United States District Court
for the Middle District of Florida
Before: WILSON, ROSENBAUM and FAY, Circuit
Judges. BY THE COURT:
The appellants’ “Motion to Direct the District Court
[to]Allow the Appellants [to] Inspect and Preserve on
Appeal Undisclosed Loan Documents is DENIED.
In the motion, the appellants request an opportunity
and additional time to inspect the ink-signed loan
documents at issue, which are currently being held
in the district court clerk’s office, in order to
convince us that the documents had been forged.
The appellants already have been given an
opportunity to inspect the inksigned loan documents
documents in question and, more importantly, the
Case:i3-13953 Date Filed: 11/07/2014 Page: 2 of 2
doctrines of collateral estoppel and res judicata
preclude the appellants from challenging the
authenticity of the promissory note. The appellants’
“Request to Certify Questions to the Florida
Supreme Court” is also DENIED. The proposed
questions do not concern unsettled questions of
Florida law. Finally, we GRANT the appellants’
“Motion to Accept Corrections [to] Their Reply Brief.”
We have considered the appellants’ arguments, as
amended in their reply brief, in our resolution of this
appeal Brief.” We have considered the appellants’
arguments, as amended in their reply brief, in our
resolution of this appeal.

14
Case 8^11-cv-2511-VMC'TBM Document 496
Filed 07/13/2103 Page 1/67 Page ID 5939
UNITED STATES DISTRICT COURT MD FLA.
TAMPA DIV. ANDRZEJ MADURA and ANNA
DOLINSKA-MADURA, Plaintiffs v. BAC HOME
LOANS SERV.L.P., ET AL., Defendants. BANK OF
AMERICA, N.A. Counter Plaintiff, v. ANDRZEJ.
MADURA and ANNA DOLINSKA-MADURA,
Counter-Defendants BANK OF AMERICA, N.A.,
Third Party Plaintiff, v. CIT LOAN
CORPORATION, ET AL., Third Party Defendants.
ORDER
This matter comes before the Court pursuant to
Bank of America, N.A.’s Motion for Summary
Judgment (Doc. # 359) and Statement of Undisputed
Facts (Doc. # 360), both filed on December 31, 2012,
and Bank of America’s Supplement (Doc.#385)
Case 8Ul-cv2511-VMC-TBM Document 496
Filed 07/17/13 Page 5/67 Page ID 5944
Full Spectrum Lending made a $87,750.00 loan to
Mr. Madura on July 26, 2000 (the “Loan”).(Siriwan
Aff.Doc.360-1 at ^[4). On that same day, Mr. Madura
signed a promissory note (the “Note”)(Doc.360-2) and
both Mr.Madura and Mrs.Madura signed a mortgage
in favor of FullSpectrum Lending which encumbered
their real property located at 3614 57Av Dr.West,
Bradenton, Fla.34210 (the'Mortgage”) (Doc 360-3).
Mr. Madura also signed an arbitration agreement at
the loan closing.(Doc. # 360-4). Upon request of the
Court, Bank of America has furnished the original
loan documents, including the Note, to the Court.
The Court has directed that the documents be filed
the Clerk’s Office in a secure location. As of April 27,
2009, Countrywide Home Loans, Inc. changed its
name to BAC Home Loans Serv.,L.P.(Doc. 360-18).

15
On April 30, 2009, BAC Home Loans Servicing, L.P.
purchased the Madura loan. (Siriwan Aff. Doc. #
360-1 at 1 7; Doc. # 360-6). On July 1, 2011, BAC
Home Loans Servicing, L.P. merged with and into
Bank of America, N.A. (Siriwan Aff. Doc. # 360-1 at
Tf 8; Doc. # 360-19). Bank of America, N.A. notified
Mr. Madura when the ownership and servicer rights
of the loan were transferred from BAC Home Loans
Servicing,L.P. to Bank of America, N.A.(Doc #360*7).
Case 8:il-cv-02511-VMC-TBM Document 496
Filed 07/17/13 Page 7 of 67 PagelD 5945
“Excerpt”
On July 15, 2003, Mrs. Madura filed an amended
complaint against Countrywide (notwithstanding the
fact that the Maduras did not arbitrate, despite
being ordered to do).
Case 8:il-cv2511-VMC-TBM Document 496
Filed 07/17/13 Page 15/67 Page ID 5953
“Excerpt”
Court accordingly takes judicial notice of the state &
federal court documents pursuant to Fed.R.Evid.201
The Court also takes judicial notice of the official
documents from the Office of the Secretary of State
bearing the seal of the State of Texas, reflecting that
Countrywide Home Loans, Inc. changed its name to
BAC Home Loans Servicing, L.P. (Doc. # 360-18)
Case 8:il-cv-2511-VMC-TBM Document 496
Filed 07/17/13 Page 17/67 Page ID 5955
The Court.....has located “Forensic Document
Examination Reports” from Vastrick dated Nov. 25,
2001 (Doc. # 71 at 4); Dec 28, 2007 (Id. at 33); Feb.
16, 2008 (Doc. # 171 at 36); July 9, 2012 (Id. at 44);
and Sept.4,2012 (Doc. # 365-1 at 3334). The Court
determines that the reports, which contain ipse dixit
reasoning devoid of any substantive analysis, are
insufficient as a matter of law.The end of the excerpt

16
Case 8:il‘cv-2511-VMC'TBM Document 496
Filed 07/13/2103 Page 29/67 Page ID 5967
Bana authenticated the Note and Allonge by filing
the Affidavit of Brieanne Siriwan,“AVP Operations
Team Lead” in which she attests that Bank of
America “directly or through an agent has
possession of the Note and held the Note indorsed in
blank prior to filing the foreclosure [counterclaim] on
May 2, 2012.” (Doc. # 360'1 at H 6). Siriwan also
states facts that establish that the Note and Allonge
are “kept in the course of [Bank of America’s]
regularly conducted business activities.” (Id. at ^ 30).
Although the Maduras seek an order striking
Siriwan’s Affidavit, the Court denies the Motions.
(Doc. ## 393, 437). Siriwan’s Affidavit satisfies the
requirements of Rule 56 because such Affidavit is
made on personal knowledge, sets out facts that
would be admissible in evidence, and shows that
Siriwan is competent to testify as to the matters
FN5 The Court acknowledges that the Maduras argue that
Bank of America failed to disclose Siriwan’s identity during
discovery. However, the Court declines to employ the
draconian sanction of striking Siriwan’s Affidavit on this basis
alone. Furthermore, even if the Court were to strike her
Affidavit, the result would not change. Bank of America has
tendered the Note to the Court and has established its
entitlement to foreclosure.

17
Case 8-11-cv-02511-VMC-TBM Document 496
Filed 07/17/13 Page 38 of 67 Pg.ID 5976
3. Rescission
Thp Maduras contend that they rescinded their
loon in defense7. The Court has entered a number of
Orders finding that the Maduras have not rescinded
their loan and it is not necessary to repeat that
ruling once again.(See, e.g., Doc. # 213 at 4). The
rescission defense is patently frivolous and Bank of
America is entitled to summary judgment on this
defense.(underlined is from Pg 37’s end in the Order)
4. Securitization/Pooling and Servicing Agreement
In defenses 11, 17, 24, 27, 28, 29, 32, 38, and 42, the
Maduras contend that their mortgage is
unenforceable because Bank of America failed to
comply with a securitization or pooling and servicing
agreement. However, the Maduras have not
identified such an agreement at the summary
judgment stage or explain why the Foreclosure
Counterclaim should fail due to the application of
any such agreement. The Court determines that
these defenses are unsupported by record evidence.
As such, summary judgment in favor of Bank of
America is warranted on these defenses.
5. Default Letters and Evidence of Default
In defenses 18 and 40, the Maduras incorrectly
assert that Bank of America failed to give proper
notice of default and acceleration. This Court has
previously determined that- “the Bank sent the
Maduras a default letter dated April 23, 2007, giving
the Maduras until May 23, 2007, to cure the default
or face acceleration.”(Doc. #165 at 6).(underlinedis
from the beginning of the Page 40 in the Order).

18
Case 8-ll'Cv02511'VMC‘TBM Document 213
Filed 09/01/12 Page 1 of 5 PagelD 2088
UNITED STATES DISTRICT COURT MIDDLE
DISTRICT OF FLORIDA TAMPA DIVISION
ANDRZE J. MADURA and ANNA DOLINSKAMADURA, Plaintiffs, Case No.: 8:il-cv-2511-T-33TB
v.
BAC HOME LOANS SERVICING L.P., ET AL„
Defendants
BANK OF AMERICA, N.A.,Counter-Plaintiff,
v.
ANDRZE J. MADURA and ANNA DOLINSKAMADURA, Counter-Defendants.
BANK OF AMERICA, N.A.,Third Party Plaintiff,
v.
CIT LOAN CORPORATION, ET AL.,
Third Party Defendants.
ORDER
This matter comes before the Court pursuant to the
Maduras’ Motion to Dismiss the Bank’s Foreclosure
Counterclaim for Lack of Subject Matter Jurisdiction
(Doc. # 203), which was filed on August 27, 2012.
Bank of America, NA (the“Bank”) filed a Response in
Case 8:il-cv-02511-VMC-TBM Document 213
Filed 09/01/12 Page 2 of 5 Page ID 2089
Opposition to the Motion (Doc. # 209) on August 31,
2012. For the reasons that follow, the Court denies
the Motion to Dismiss.
I. Background
The Maduras’ response to the Bank’s Foreclosure
Counterclaim is due on September 6, 2012, pursuant

19
to the Court’s Order dated August 23,2012(Doc.#193)
Rather than responding as ordered by the Court
the Maduras have filed yet another Motion to
Dismiss such Counterclaim. The present Motion to
Dismiss is the Maduras’ fourth successive Motion to
Dismiss the Bank’s Counterclaim.(Doc. # 193). This
Court has denied the three previously-filed Motions
to Dismiss, and the present Motion to Dismiss fares
no better. The basis of the Motion to Dismiss is that
the Court lacks subject matter jurisdiction over the
Counterclaim because the Maduras rescinded their
Mortgage pursuant to the Truth in Lending Act.
The Maduras state that the Motion is brought
pursuant to Rule 12(b)(f) of the Fed. Rules of Civ. Pr.
Being that such rule does not exist, and being that
the Motion seeks dismissal based on lack of subject
matter jurisdiction, the Court will construe the
Motion as asserted pursuant to Rule 12(b)(1). 1
Case 8:il-cv-02511-VMC-TBM Document 213
Filed 09/01/12 Page 3 of 5 Page ID 2090
II. Legal Standard
Federal courts are courts of limited jurisdiction.
“[Bjecause a federal court is powerless to act beyond
its statutory grant of subject matter jurisdiction, a
court must zealously insure that jurisdiction exists
over a case, and should itself raise the question of
subject matter jurisdiction at any point in the
litigation where a doubt about jurisdiction arises.”
Smith v. GTE Corp.,236 F.3d 1292,1299 (11th Cir.
2001). Motions to dismiss for lack of subject matter
jurisdiction pursuant to Fed.R.Civ.P. 12(b)(1) may
attack jurisdiction facially or factually. Morrison v.
Amway Corp.,323 F.3d 920, 924 n.5 (11* Cir. 2003).
The Court may look outside the four corners of the

20
complaint to determine determine if jurisdiction
exists. Eaton v. Dorchester Dev., Inc., 692 F.2d 727,
73(llth Cir. 1982). In a factual attack, the
presumption of truthfulness afforded to a plaintiff
under Fed. R. Civ. P. 12(b)(6) does not attach. Scarfo
v. Ginsberg, 175 F.3d 957,960 (11th Cir. 1999) (citing
Lawrence v.Dunbar, 919 F.2dl525, 29(11th Cir. 1990)
Because the very power of the Court to hear the case
is at issue in a Rule 12(b)(1) motion, the Court is
free to weigh evidence outside the complaint. Eaton,
692F.2d at 732.
l.The Maduras’ Motion to Dismiss is not amenable to
disposition pursuant to Rule 12(b)(6) Fed.R.Civ.P.because such
Motion is based upon documents external to the pleadings.
Case 8:il-cv-02511-VMC-TBM Document 213
Filed 09/01/12 Page 4 of 5 PagelD 2091
III. Analysis
The Maduras attach to their Motion to Dismiss a
scathing letter, dated May 23, 2001, authored by the
Maduras and addressed to Countrywide Homeloans
Customer Service. (Doc. # 203 at 5-ll). The letter
accuses Countrywide of fraud, forgery, and of‘taking
advantage of poor people by giving them loans with
very high percentage rates.’ld.at 7. The letter
threatens Countrywide with a lawsuit and blames
Countrywide for Mrs.Madura’s hospitalization;
however, whatthe letter does not do is mention TILA
or accomplish rescission of the Maduras’ mortgage.
In addition, the letter makes no mention of Bank of
America, the Counterclaimant, and the Maduras fail
to explain why the letter to Countrywide would
affect the rights of Bank of America in this action.
Futhermore, as stated by the Bank, “ not only did

21
the Maduras not rescind their loan, they continued
to make payments on their mortgage loan for more
than five years after sending the letter”(Doc.209 at3)
Case 8:il‘cv‘02511‘VMC’TBM Document 213
Filed 09/01/12 Page 5 of 5 Page ID 2092
The Maduras’ missive, even construed broadly, does
not mandate the dismissal of the Counterclaim and
is no bar to the Court’s exercise of subject matter
jurisdiction over the Bank’s Counterclaim. Rather
than filing Motions to Dismiss seriatim, the Court
suggests that the Maduras timely respond to the
Counterclaim, which was filed on May 2, 2012, so
that this case can move forward toward its final
resolution. Accordingly, it is
ORDERED, ADJUDGED, and DECREED:
The Maduras’ Motion to Dismiss the Bank’s
Foreclosure Counterclaim for Lack of Subject Matter
Jurisdiction (Doc. # 203) is DENIED.
DONE and ORDERED in Chambers, in Tampa,
Florida, this 31st day of August 2012.
“sr

VIRGINIA M. HERNANDEZ COVINGTON
UNITED STATES DISTRICT JUDGE
Copies: All Counsel and Parties of the Record
2. This Court’s basis for exercising subject matter
jurisdiction is the Maduras’ claim that the Bank
violated the RESPA

22

Case 8^11‘cv02511‘VMC-TBM Document 422-8
Filed 03/29/13 Page 3 of 7 Page ID 5202
BK 2040 PG 2473 (3 of 7) or Book 02302 Pages 7737
Manatee County Clerk 5 Pages(5) Recorded 6/7/2005
10:02:57
IN THE CIRCUIT COURT OF THE TWELFTH
JUDICIAL CIRCUIT IN AND FOR MANATEE
COUNTY, FLORIDA
ANDRZEJ MADURA and ANNA DOLINSKAMADURA, Counterdefendants / Plaintiffs,
CASE NO. 2002 CA 2358 Div.D
v.
FULL-SPECTRUM LENDING, INC. and
COUNTRYWIDE HOME LOANS, INC.,
ORDER ON CROSS MOTIONS FOR SJ
THIS CAUSE comes before the Court upon
Defendants’, Full Spectrum Lending, Inc. and
Countrywide Home Loans, Inc. (“Defendants”), and
Plaintiff Anna Dolinska-Maduras Motions for
Summary Judgment filed pursuant to Florida Rule
of Civil Procedure 1.510. Hearings on the above
referenced motions were held in April 20, 2004; the
Plaintiff and Defendants were both present and
represented by counsel.
The Court, having reviewed the motions and case
.law, having heard argument, and being otherwise
duly advised in premises, makes the following
findings of fact and conclusions of law:
Background:
On May 1, 2002, the original Plaintiffs to this
lawsuit, Andrzej Madura and his wife, Anna
Dolinska Madura, filed an initial Complaint against
Full-Spectrum Lending, Inc. and Countrywide Home
Loans, Inc., with allegations against the Defendants
of usury, forgery and conspiracy related to a loan
closing on July 26, 2000. On Aug. 5, 2002. this Court
Case 8:ll-cv 02511-VMC-TBM Doc.422-8 Filed 03/29

23
/13. Pg 4 of 7, Pg. ID 5203 BK 2040 PG 2474 (4 of 7)
granted the Defendants motion to compel Mr.
Madura to arbitrate und ordered Mr. Madura to
bring his claims before the National Arbitration
Forum should he continue to pursue them. On July
15, 2003, the remaining Plaimiff, Anna Dolinska
Madura, filed an Amended Complaint containing
additional allegations that the Defendants violated
federal Truth in Lending Act provisions. Throughout
the protracted course of this litigation, Mr. and Mrs.
Madura have filed copious motions, posing a
significant challenge for this Court to efficiently
guide this case through the judicial process.
Counts I and II
In Counts I and II of the Plaintiffs Amended
Complaint, the Plaintiff makes allegations that the
Defendants forged a Truth in Lending Act ("TILA”)
document subsequent to the July 26. 2000 closing to
change the terms of the loan and add a prepayment
penalty without the Plaintiffs knowledge. The
Defendants argue in their Motion for Summary
Judgment that Plaintiffs TILA claims are timebarred due to a one-year statute of limitations
pursuant to 15 U.S.C.A. § 1640(e).
According to the Defendants, the Plaintiff claims
to have discovered the alleged forgery In March
2001! the Plaintiff disputes this claim. The record
discloses that the Plaintiff first had knowledge of the
alleged TILA forgery in November 2001.FN1
FNl In the Plaintiffs Notice of Correction of an Error in the
Plaintiff s Motion for Partial Summary Judgment. Plaintiff
seek to clarify the record by stating: “ Plaintiff did not know
until November 25, 2001, that Truth in Lending was forged “
Accepting the nonmoving party's facts as true for
purposes of !his summary judgment motion, this

24
Court finds the TILA claims raised by Plaintiff in
Counts I and II are still barred by the one-year
statute of limitations. See 15 U.S.C.A. § 1640(e).
Fraudulent concealment can toll the statute of
limitations, as long as the fraud is concealed, or as
long as the Defendant is under on duty to disclose
certain facts and fails to do so.
Case 8:06-cv- 02511-VMC‘TBM, Document 422-8
Filed 03/29/13 Page 5 of 7 Page ID 5204
BK 2040 PG 2475 (5 of 7)
Thus, even if Plaintiffs allegations are true and the
Defendants fraudulently concealed the alleged
forgery, the Plaintiffs were nonetheless on notice as
of November 2001, giving them one year to file
pursuant to 15 U.S.C.A. § 1640. In the May 2002
Complaint, the Plaintiffs raise allegations of forgery;
however, they do not set forth any claims alleging
violations of the federal TILA statutes. Therefore, as
of May 2002, the Defendants are not yet on notice of
a TILA claim. The Plaintiff first raises the TILA
claim in the Amended Complaint filed in July 2003.
Allegations made in an amended complaint are not
barred by statute of limitations if they relate back to
the original pleading that put the Defendant on
adequate notice of a TILA claim. See Ecenrode v.
Household Finance Corp., 422 F. Supp 1327 (0. Del.
1976). The Plaintifs Amended Complaint sets forth
the TILA claim; however, unlike tn Ecenrode, supra,
the Defendant did not have notice of a count alleging
TIL.A violations in the original Complaint.
Therefore, the allegations of federal statutory
violations cannot properly relate back; they are
beyond the time limit and are barred by the oneyear statute of limitations.

25
Counts HI andIV
In Counts III and IV of the Amended Complaint, the
Plaintiff makes allegations that the contract entered
into with the Defendants is usurious on its face and
in violation of Sections 687.03 (Unlawful rates of
interest") and 687.071 ("Criminal usury, loan
sharking; shylocking"), Florida Statutes. The
Defendants argue in their motion that Mrs. Madura
does not have standing (FN2) because she did not
apply for the loan and, therefore, she is not a
“borrower" within the definition of Section 687.14(2),
Florida Statutes (FN3). Mrs. Madura disputes the
Defendants' claim that she is not ‘borrower’’ and
Case 8:ll-cv 02511-VMC- TBM Document 422-8
Filed 03/29/13 Page 6 of 7, Pg ID 5205
3BK 2040 PG 2476 (6 of 7)
states that her signature on several of the loan
documents proves she is entitled to such a
designation. Upon review of the record, this Court
finds that, as a matter of law, Mrs. Madura does not
qualify as a "borrower" under Section 687.14(2),
Florida Statutes, and thus lacks standing to bring
claims of usury as set forth in this Complaint.
While the Plaintiff argues that she does qualify as a
"borrower" because her name appears on several of
1 Section 687.147, Florida Statutes, states in peninent part.
"Any borrower injured by a violation of this act may bring an
aclion for recovery of damages ...." (emphasis added). 3
According to Section 687.14(2), Florida Statutes, a "borrower" is
defined as "a person obtaining or desiring to obtain a loan of
money, a credit card, or a line or credit."

26
While the Plaintiff argues that she does qualify as a
"borrower" because her name appears on several of
the loan documents, the Court finds that the record
fails to demonstrate that Mrs. Madura's signature on
these documents constitutes borrower status. Mr.
Madura is listed as the sole borrower on the Uniform
Residential Loan Application ("URLA"). Defendant
Full Spectrum Lending lists Mr. Madura as the sole
borrower/applicant on the loan documents: Mrs.
Madura's signature does not appear on the same
documents. Furthermore, Mrs. Madura has admitted
in court proceedings that she did not sign the
arbitration agreement signed by Mr. Madura as a
condition of the loan.(FN4).
Counts Vand VI
In Counts V and VI, Plaintiff claims the Defendants
forged loan documents and fraudulently charged a
prepayment penalty of $5,036.84 that the Plaintiff
never agreed to on closing. It is undisputed that the
Defendants waived the prepayment penalty. Even
though there remains a factual dispute with respect
to the allegations in Counts V and VI,. an exhaustive
review of the review of the record fails to show any
evidence of damages. Actual damages and the
measure of such damages are essential as a matter
of law in establishing a claim of fraud. See Casey v.
Welch, 50 So. 2d 124 (Fla. 1951); Sussex Mutual Ins.
Co. v. Gabor, 568 So.2d 1004 (Fla. 3d DCA 1990).
FN 4 See transcript, page 17, of January 20, 2004 proceedings
before Judge Robert Bennett on Plaintiffs Motion for Leave to
Amend the complaint to add punitive damages claim.

27

Case 8:il-cv-02511-VMC-TBM Document 422-8
Filed 03/29/13 Page ID 5206
3K 2049 BG2477 Filed Recorded 7/20/05 9:46:29 AM
R.B. CHIPS SHORE Clerk of Circuit
Therefore, based on the foregoing, it is
ORDERED AND ADJUDGED that:
1. Defendants' Motion for SUmmary Judgment is
GRANTED as to all counts.
2. Plaintiffs Motion for Partial Summary Judgment
is DENIED.
3. This Court reserves jurisdiction for the award of
attorney's fees and costs.
DONE AND ORDERED in Bradenton, Manatee
County, Florida, this day 22 of June 2005.
“sr

Marc B. Gilner, Circuit Judge
CERTIFICATE OF SERVICE I HEREBY CERTIFY
that a true and correct copy of the above has been
furnished by U.S. Mail to: Wiliaam P. Heller, Esq.,
Akerman Senterfitt, Las Olas Centre II, Suite 1600,
350 East Las Olas Blvd., Ft. Lauderdale, FL 3330 L
Wilhalm Randolph Klein, Esq., 1900 Main Street,
Suite 11310, Sarasota, FL 34236; Anna DolinskaMadura, 3614 57th Avenue Drive West, Bradenton,
Florida 34210 on this 22 day of June 2005
“s r

JUDICIAL ASSISTANT

Additional material
from this filing is
available in the
Clerk's Office.

